                         UNITED STATES ATTORNEY’S OFFICE
                         Southern District of New York
                         U.S. ATTORNEY PREET BHARARA

FOR IMMEDIATE RELEASE                       CONTACT:       U.S. ATTORNEY’S OFFICE
Thursday, September 18, 2014                               James Margolin, Jerika Richardson,
http://www.justice.gov/usao/nys                            Jennifer Queliz, Betsy Feuerstein
                                                           (212) 637-2600

EX-IM OIG                                                  EX-IM
Daniel Stitt                                               Dolline Hatchett
(202) 565-3811                                             (202) 565-3322

   MANHATTAN U.S. ATTORNEY SETTLES CIVIL FRAUD CLAIMS
  AGAINST EXPORTER FOR FRAUDULENTLY OBTAINING A LOAN
        GUARANTEED BY THE EXPORT-IMPORT BANK
  Exporter Admits Responsibility and Agrees to Pay $3.5 Million to U.S.; Suit Against Turkish
           Business Agent Who Brokered the Fraudulent Transaction Goes Forward

         Preet Bharara, the United States Attorney for the Southern District of New York, Michael
McCarthy, the Acting Inspector General for the Export-Import Bank of the United States (“EX-
IM”), and Fred Hochberg, the Chairman for EX-IM, announced today that the United States filed
a civil fraud lawsuit in Manhattan federal court against HASAN BESNELI, a Turkish business
agent, and SABA, INC. (“SABA”), an exporter based in Memphis, for fraudulently obtaining a
loan for a construction project in Turkey from Deutsche Bank that was guaranteed by EX-IM.
The United States’ complaint alleges that, in applying for the loan and the loan guarantee,
BESNELI and SABA misrepresented key aspects of the transaction, including how much of the
loan proceeds would be spent on “local costs” in Turkey rather than on U.S.-made goods, and
whether the borrower, a Turkish non-profit organization, would furnish a 15% down payment.
The lawsuit seeks civil penalties under the Financial Institutions Reform, Recovery, and
Enforcement Act (“FIRREA”) and damages and penalties under the False Claims Act.

        Simultaneous with the filing of the lawsuit, the United States settled the claims against
SABA pursuant to a settlement stipulation approved today by U.S. District Judge John F.
Keenan. In the settlement, SABA admitted and accepted responsibility for submitting
information to EX-IM in connection with applying for the loan guarantee without verifying the
truth or accuracy of such information and for marking up the costs of certain goods – by as much
as 300% – for purposes of generating “cash money.” SABA also agreed to pay $3.5 million and
to abstain from participating in any EX-IM loan or loan guarantee programs for seven years. The
lawsuit is going forward against BESNELI.

        Manhattan U.S. Attorney Preet Bharara said: “The Export-Import Bank is charged with
promoting export of U.S.-made goods. It is absolutely unacceptable for exporters and business
agents to undermine that mission by misrepresenting how proceeds from loans guaranteed by
EX-IM will be used.”




                                               -1-
      EX-IM Acting Inspector General Michael McCarthy said: “This case shows our
commitment to vigorously pursue persons and businesses who scheme to defraud the EX-IM
Bank. The OIG appreciates the tenacity of the Southern District of New York in this lengthy and
complex investigation.”

         EX-IM Chairman Fred Hochberg said: “We take very seriously our commitment to
taxpayers and our mission to support U.S. jobs. This should serve notice to any outside entity
that tries to defraud the Export-Import Bank, we have zero tolerance for waste, fraud and abuse,
and we are constantly analyzing transactions for such activity and will work with our Inspector
General to take immediate action in response to any evidence of fraud in EX-IM Bank
transactions.”

         According to the allegations in the complaint filed in Manhattan federal court:

        In 2002, BESNELI and SABA began working together to bid on contracts involving
export of U.S. goods to be used in construction projects in Turkey. One of those projects
involved TC Basbakani Baskanliginda Darussafaka Cemiyeti (“Darussafaka”), a Turkish non-
profit organization, which planned to develop a retirement home complex in Urla. To ensure
that they would be picked as the exporter for the Urla project, BESNELI and SABA promised
Darussafaka that they would obtain an EX-IM-guaranteed loan to finance that project.

        BESNELI and SABA made that promise even though they knew that Darussafaka did not
plan to comply with EX-IM’s loan guarantee requirements, including a 15% down payment by
the borrower, i.e., Darussafaka, and capping “local costs” at 15%. To circumvent those
requirements, BESNELI and SABA made misrepresentations to EX-IM and to Deutsche Bank,
the lender, regarding how much of the loan funds would be spent on local costs and whether
Darussafaka would furnish a down payment. Further, after BESNELI and SABA fraudulently
obtained the loan from Deutsche Bank under an EX-IM loan guarantee, they orchestrated a
scheme whereby SABA marked up the costs of the U.S.-made goods being exported to Turkey –
sometimes by as much as 300% – in order to generate “cash money” that they funneled back to
Darussafaka to fund local costs.

        Finally, in 2007, Darussafaka defaulted on the loan from Deutsche Bank that was
guaranteed by EX-IM. Pursuant to its loan guarantee, EX-IM reimbursed Deutsche Bank and, as
a result, was exposed to millions of dollars in potential losses.

                               *               *              *

       The claims against BESNELI were not resolved by the SABA settlement and will go
forward. The Government seeks civil penalties against BESNELI for fraudulently obtaining the
loan extended by Deutsche Bank, a federally insured financial institution.

        Mr. Bharara thanked the EX-IM’s Office of the Inspector General for its investigative
efforts and ongoing support and assistance with the case.

        The case is being handled by the Office’s Civil Frauds Unit. Assistant U.S. Attorneys
Cristine Irvin Phillips, Li Yu, and Ellen M. London are in charge of the case. This case was
investigated by the EX-IM OIG in Washington, D.C.

14-268                                             ###


                                                   -2-
